Department of Health and Human Services

         OFFICE OF 

    INSPECTOR GENERAL 





 IN-HOSPITAL VOLUNTARY PATERNITY 

     ACKNOWLEDGMENT   PROGRAM 


State Agency and Birthing Hospital Implementation




                         JUNE GIBBS BROWN
                         Inspector General

                              AUGUST 1997
                             OEI-06-95-00160
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services’ (HHS) programs as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by three OIG operating
components: the Office of Audit Services, the Office of Investigations, and the Office of Evaluation and
Inspections. The OIG also informs the Secretary of HHS of program and management problems and
recommends courses to correct them.

                  OFFICE OF EVALUATION AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in these inspection reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.

OEI’s Dallas Regional Office prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General.

Project Staff included:


DALLAS REGION                                                   HEADQUARTERS

Ruth Ann Dorrill, Project Leader 
                              Arm O’Connor, Program Specialist 

Michelle Adams, Ph.D 
                                          Linda Moscoe 

Karen Erickson, Intern 
                                        Barbara Tedesco 

Lisa Lesh, Intern 

Marnette Robertson 

Sarah Taylor 

Nancy Watts 



For additional copies of this report, please contact the Dallas Regional Office at (800) 848-8960.
 Department of Health and Human Services

          OFFICE OF 

     INSPECTOR GENERAL 





 IN-HOSPITAL VOLUNTARY PATERNITY 

     ACKNOWLEDGMENT   PROGRAM 


State Agency   and Birthing Hospital Implementation




                          JUNE GIBBS BROWN
                          Inspector General

                               AUGUST 1997
                              OEI-06-95-00160
             EXECUTIVE                            SUMMARY 


PURPOSE

This report describes State implementation of in-hospital voluntary paternity
acknowledgment programs.

BACKGROUND

Federal law requires that States implement hospital-based programs for the voluntary
acknowledgment of paternity, seeking to facilitate at-birth paternity establishment for
children born to unmarried parents. Many States have long used hospital-based programs,
and even now the voluntary acknowledgment process may be administered largely at State
discretion, but the intent of the Federal mandates is to make paternity acknowledgment
part of the birth registration process. Therefore, State child support and vital records
agencies are in the process of forging new or enhanced working relationships.
Comprehensive mail surveys were completed by both child support and vital records
agencies in every State and the District of Columbia. In the child support agency surveys,
we focused on contact with hospitals and procedures for acquiring completed
acknowledgments. For vital records agencies, our focus was on paternity documentation,
but also covered interaction with child support offices, outreach to hospital staff and State
laws governing the use of birth registry information.

FINDINGS

All States have established in-hospital programs for voluntary paternity acknowledgment, 

although practices vary significantly by State. Despite barriers identified, both child 

support and vital records agencies support the paternity establishment effort and report 

largely effective interaction with each other. Child support and vital records agencies also 

rate birthing hospitals largely capable and willing to assist in the voluntary 

acknowledgment process. However, a number of agency respondents report confusion 

over their respective roles in administering the programs. As acknowledgment programs 

mature, each State’s growth and success will rely on interagency collaboration. 


Program implementation

All States offer voluntary acknowledgment services, and 36 State child support agencies
report Statewide birthing hospital implementation.

Child support and vital records agencies agree in-hospital programs encourage voluntary
acknowledgment and report acknowledgments have risen since program implementation,

Both State agencies view in-hospital programs as helpful to unmarried parents and report
few parent rescissions of voluntary acknowledgments.



                                              i
State Child Support and Vital Records Agency Practices and Procedures

States have made progress in handling paternity documentation, but both child support and
vital records agencies report a continued need for improvement in the methods, timeliness
and completeness of documentation procedures.

Acknowledgments usually go through vital records systems before reaching child support
and are transferred more often by paper than electronically, although many child support
agencies desire on-line access to birth registration databases managed by vital records.

Both child support and vital records agencies give mixed responses on the effect of
notarization requirements, but most report it has a positive impact or no impact on
program operations.

Interaction between Child Support and Vital Records Agencies

A majority of both child support and vital records agencies report effective relationships
with each other, despite identifying a number of barriers to collaboration.

Both child support and vital records agencies appear somewhat unclear about their relative
responsibilities in administering voluntary acknowledgment programs.

A majority of State child support offices which pay their vital records agencies for tasks
related to paternity acknowledgment, report payment improves services or relationships,
but some question the appropriateness of such payment.

Contact with Birthing Hospitals

Most States have contacted all of their hospitals about paternity services, but only half
monitor hospital participation by collecting data on births and acknowledgments.

State child support and vital records agencies report hospital staff are capable and willing
to administer acknowledgments, but they perceive low staffing as a problem and are
unclear about the role of hospital staff in communicating with unmarried parents.

Most child support agencies which pay birthing hospitals for completed voluntary
acknowledgments believe the payment helps the acknowledgment process.

Contact with Unmarried Parents

Child support agencies report that putative fathers more often create a barrier to
acknowledging than mothers, and consider the parent relationship to be the most important
factor in choosing to acknowledge.

Nearly all child support agencies attempt to educate unmarried parents regarding paternity
acknowledgment, and a few States follow-up with parents after hospital discharge.


                                              ii
RECOMMENDATIONS

Overall, we find child support and vital records agencies are making positive changes in
the implementation of hospital-based paternity acknowledgment programs. Both State
agencies are supportive of the paternity acknowledgment effort, have made efforts to
improve their documentation procedures, and are usually able to communicate effectively
with each other. Still, considerable improvement could be made in forging interagency
partnerships. Based on our findings, we recommend the Office of Child Support
Enforcement (OCSE) take the following actions to improve the State operation of in-
hospital voluntary paternity acknowledgment programs. The first and second
recommendations duplicate those found in a companion report on facility participation
subtitled “Hospital Experiences in Sample States”:

AGENCY INTERACTION AND DZWSZON OF DUTIES. Promote interagency
collaboration, and assure child support and vital records agencies more clearly define
their respective roles. OCSE should provide technical assistance to enhance agency
interaction and encourage joint problem-solving among child support and vital records
agencies and should consider encouraging States to draft a flexible interagency agreement
which would make clear the procedures and activities specific to each agency.

STATEWDE HOSPITAL ZMPLEMENTATZON AND ASSESSMENT. Monitor Statewide
hospital implementation by assuring all States collect acknowledgment data for each
birthing hospital and by encouraging development of hospital assessment procedures.
OCSE should provide technical assistance to States in creating hospital assessment
procedures, and should consider developing a uniform reporting mechanism for States to
monitor nonmarital birth and acknowledgment data per hospital and to report hospital
assessment procedures and outcomes.

USE OF FUNDS. Clarify the appropriate use by child support agencies of Federal
Financial Participation monies in compensating vital records agencies. OCSE should
provide guidance to State child support agencies in determining the proper use of Federal
funds regarding payment to vital records agencies for services related to voluntary
paternity acknowledgment programs.

AGENCY COMMENTS

We have worked in close partnership with OCSE throughout the conduct of this 

inspection. Although we did not receive formal comments from ACF on our draft 

reports, they demonstrated through their collaboration a general agreement with this report 

and the companion reports. We worked with OCSE in developing a research 

methodology, provided extensive briefings on study findings and created additional 

documents to meet agency needs. We appreciate their cooperation and guidance, and will 

continue to work with them on the issues raised in these reports. The Office of the 

Assistant Secretary for Planning and Evaluation provided its general concurrence with 

both this report and the hospital experiences report. 




                                             .. .
                                             111
                        TABLE                      OF CONTENTS 


                                                                                                            PAGE 


EXECUTIVESUMMARY                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..l 


FINDINGS 


  � Program      Implementation          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


  � Practices    and Procedures          ............................                             .......          6


  � Interaction     Between Child Support and Vital Records Agencies .....                        ......       11 


  � Contact     with Birthing Hospitals ........................                                  ......       18 


  � Contact     with Parents ...............................                                      ......       21 


RECOMMENDATIONS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 


APPENDICES

A: Sample Paternity Acknowledgment Forms . . . . . . . . . . . . . . . . . . . . . . . . A-l

   A-2    Paternity acknowledgment affidavit 

   A-3    Three-way paternity acknowledgment affidavit 

   A-4    Mother’s Rejection of Paternity Affidavit 

                          INTRODUCTION 


PURPOSE

This report describes State implementation of in-hospital voluntary paternity
acknowledgment programs.

BACKGROUND

The Omnibus Budget Reconciliation Act of 1993 (OBRA) amends Child Support Title IV­
D of the Social Security Act, requiring States to implement hospital-based programs for
the voluntary acknowledgment of paternity. The objective of these programs is to
facilitate at-birth paternity establishment for children born to unmarried parents.
Establishment of paternity at birth has many administrative, financial and emotional
benefits. Mothers often lack information about the importance of and methods for
establishing paternity. Consequently, they may not seek to establish paternity until a point
at which the process becomes more difficult. Paternity researchers agree that the most
opportune time for paternity establishment is the “happy hour” in the hospital immediately
following birth and before the release of the mother and child. Without an establishment
of paternity, unmarried mothers may never obtain a child support order and gain access to
the enforcement services of their State child support office. Once a child support order is
issued, never-married women are as likely to receive payment as are divorced women.

Many States implemented hospital-based programs before this legislation, and even now
under the mandates, the voluntary paternity acknowledgment process may be structured
and administered largely at State discretion. The voluntary paternity acknowledgment
process seeks to reduce administrative burdens and provide a healthier, more positive
introduction to parenting responsibilities. In most States, birthing hospitals’ are the
centerpiece of this effort. Under OBRA, State child support agencies must: 1) implement
hospital-based voluntary paternity acknowledgment programs in every public and private
birthing hospital; 2) require that a witness or notary public participate in the signing of
voluntary acknowledgments; 3) make available voluntary acknowledgment outreach
materials, including information on parental rights and responsibilities, and materials for
training hospital staff; 4) provide Federal Financial Participation (FFP) payments, not to
exceed 20 dollars, to birthing hospitals for each voluntary paternity acknowledgment at
State discretion2; and 5) monitor birthing hospital compliance on at least an annual
basis.3

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(PRWORA) further defines paternity establishment and encourages State uniformity and
accountability. PRWORA makes the following refinements to the procedures listed
above: 1) provision to mothers and fathers of both written materials and oral explanations
regarding the rights and responsibilities of paternity establishment; 2) a uniform 60-day
window for rescission following a voluntary paternity acknowledgment, after which
acknowledgment would establish a legal finding of paternity; and 3) inclusion of State


                                              1
vital records agencies in processing paternity acknowledgments and child support orders.
Neither OBRA nor PRWORA precludes the use of the birth certificate rather than a
separate paternity acknowledgment form if the birth certificate includes the necessary data
elements.

As interpreted by the Office of Child Support Enforcement (OCSE), the intent of both
OBRA and PRWORA is to make voluntary paternity acknowledgment part of the birth
registration process. Therefore, State child support and vital records agencies are in the
process of forging new or enhanced working relationships. This report describes those
relationships and the actions taken by each to administer their State’s in-hospital paternity
acknowledgment program. Two companion reports will be issued as part of this study.
The first entitled, “In-Hospital Voluntary Paternity Acknowledgment Programs: “Hospital
Experiences in Sample States (OEI-06-95-00161)” describes program usage nationwide
using survey responses from birthing hospitals and State agencies in 15 sample States, and
the second entitled, “In-Hospital Voluntary Paternity Acknowledgment Programs: Best
Practices in Education and Outreach (OEI-06-95-00162)” highlights innovative training of
parents and staff. In addition, two documents were produced for OCSE during our
inspection entitled “Sample State Summaries” and “Common Data Elements - State
Paternity Acknowledgment Forms” to meet immediate needs pertaining to implementation
of PRWORA.

METHODOLOGY

After preinspection research, we used comprehensive mail surveys to reach State child
support and vital records agencies. In addition to completing the survey, agencies sent
examples of paternity acknowledgment outreach materials and photocopies of their birth
certificates and voluntary paternity acknowledgment forms. For child support agencies,
the pretested survey instrument focused on the procedures in place for facilitating hospital-
based paternity acknowledgment programs, their contact with and methods of monitoring
birthing hospitals and their procedures for acquiring completed voluntary acknowledgment
forms.

For vital records agencies, our focus was on the path of paternity documentation and
collection of acknowledgment data, but also covered interaction with child support offices,
outreach to birthing hospitals and applicable State laws governing the use of birth registry
information. Vital records surveys were sent to the chief registrar in each State, the
District of Colombia and the City of New York. In nearly all cases, the registrars
themselves completed the survey. Child support enforcement agency surveys were sent to
the central child support (IV-D) office in every State and the District of Columbia, where
respondents were typically child support directors or paternity program coordinators.4 In
some cases, small groups of agency officers completed the form together. We received
completed surveys and documents from every State child support and vital records agency
surveyed. 5

This study was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.


                                              2
                                  FINDINGS 


All States have established in-hospital programs for voluntary paternity acknowledgment,
although practices and experiences vary significantly by State. Despite a number of
barriers identified, both child support and vital records agencies support the paternity
establishment effort and report largely effective interaction with each other. Even though
many States are still early in implementation, much progress has been made toward better
interagency cooperation and smoother paternity documentation procedures.

However, considerable improvement could still be made in forging interagency
partnerships. A number of vital records and child support agencies report confusion over
their respective roles in administering the in-hospital programs. They also sometimes
struggle in reconciling the long-established vital records’ process of birth registration with
the child support objective of establishing paternity for issuing child support orders.
Although many State agencies have created successful working relationships in the last
several years, others have made little effort to work together, particularly regarding the
transfer of paternity documentation. As in-hospital acknowledgment programs mature,
each State’s growth and success will rely on interagency teamwork.

Both State agencies report birthing hospitals largely capable and willing to assist in the
voluntary acknowledgment process. Most child support and vital records respondents
view their relationships with hospitals as effective (with vital records reporting stronger
ties), but only half of child support agencies monitor hospital participation by collecting
data on nonmarital births and acknowledgments received per hospital. Additionally, the:x-e
is disagreement regarding the appropriate role of hospital staff in assisting unmarried
parents, and wide State variation in the use of outreach and educational materials for
mothers and putative fathers.

PROGRAM IMPLEMENTATION

All States Offer Voluntary Acknowledgment Services, Although Not Every Program is
Yet Statewide, and Both Child Support and Vital Records Agencies Give a Positive
Evaluation of Program Impact.

Most States offered some tvne of voluntary acknowledgment service nrior to the Federal
mandate, but these nractices did not meet current nrogram obiectives.

Forty-three vital records agencies and 39 child support agencies report they used a method
of voluntary acknowledgment prior to the Federal mandates, and a few States started
procedures as early as the 1940’s and 50’s. But these programs usually lacked widespread
hospital involvement6 and linkage to the birth registration process. Implementation for
these early programs typically included only the availability of acknowledgment forms
without much hospital responsibility to promote the program or to explain paternity
establishment to parents.



                                               3

A number of States took the opportunity of new Federal policy to make other changes in 

their acknowledgment procedures that were not mentioned in OBRA. For example, some 

States began requiring notarization of paternity affidavits, changed the level of 

presumption given to a voluntary acknowledgment, or added previously missing 

acknowledgment revocation procedures. A typical State response was “(before the law) 

we added the name of the father to the birth cert@cate when he signed an 

acknowledgment, but the form had no real legal significance, VIand “we used paternity 

a$+idavits,but we didn’t collect data or keep track of their use per hospital. ” Many 

mentioned they “only kept forms at the public health ofSice and didn’t promote the idea (of 

paternity acknowledgment). ” PRWORA requires the U.S. Department of Health and 

Human Services to list a standard set of data elements to serve as a model for States in 

creating paternity acknowledgment forms or modifying their birth certificates, with the 

intent that common data elements may facilitate interagency and interstate sharing of 

information. Although all States have created affidavits for paternity acknowledgment, a 

few use these forms only when acknowledgment occurs out of the hospital, relying on the 

signing of the birth certificate for in-hospital acknowledgment (See Appendix A-2 for an 

example of a paternity acknowledgment affidavit. 


Most Child Sunnort Agencies Have Contacted All of Their State’s Birthing Hosnitals 

Regarding Paternitv Services, and 36 Report Statewide Program Imnlementation. 


Thirty-six child support agencies (77 percent) report all birthing hospitals are participating 

in their paternity acknowledgment program. An additional three States have contacted all 

birthing hospitals in their State to inform them of the program and to assist in offering 

paternity acknowledgment services to parents, but do not yet report Statewide 

implementation. The remaining 12 child support agencies have not yet contacted all 

birthing hospitals in their State. In States without complete birthing hospital participation, 

the following reasons are given for the delay: 1) too early for their office to require 

hospitals to participate (five States); 2) too early for their child support staff to have 

contacted every State birthing hospital (three States); and 3) agency first targeted birthing 

hospitals with a higher incidence of nonmarital births before attempting Statewide 

implementation (two States). A total of eight States, including some which report full 

implementation and some which have not yet gone Statewide, report they have targeted 

high-risk hospitals for special attention. 


Child support and vital records agencies agree in-hospital nrograms encourage voluntary 

patemitv acknowledgment, and a majoritv of States renort acknowledgments have risen 

since implementation of the Federal provisions. 


Forty-four of the responding child support offices (90 percent) deem the in-hospital 

process very helpful or helpful in encouraging unmarried parents to voluntarily 

acknowledge paternity. Vital records offices share this view, but not as strongly, with 33 

(66 percent) reporting hospital-based programs are helpful or very helpful in encouraging 

acknowledgments, and an additional eight (16 percent) rating the programs as somewhat 

helpful. Thirty-six child support agencies (72 percent) and 27 vital records agencies (59 

percent) report a higher or much higher number of acknowledgments have been received 

since implementing OBRA. Most other respondents from both State agencies report no
change due to the Federal mandates, or that it is too early in implementation to evaluate.
Only one vital records agency claims acknowledgments are actually somewhat lower since
implementation.

Child support agencies renort few rescissions of in-hospital natemitv acknowledgments.

Nearly 90 percent of the 28 State child support agencies which allow revocation of a
voluntary paternity acknowledgment (usually within 30 to 90 days) report few or no
rescissions of acknowledgments since program implementation. The low incidence of
rescission appears to be a strong endorsement of voluntary acknowledgment, but using the
number of rescissions as a performance measure for States is limited somewhat by the
absence of a baseline: three-fourths of States did not keep records of rescissions before
OBRA. Implementation of PRWORA will require States to adopt a 60-day rescission
period, and does not specify whether revocation procedures should be administrative or
judicial.

Child Support and Vital Records Agencies Perceive In-Hospital Programs as Helpful to
Parents and Find Advantages to At-Birth Acknowledgment Far Outweigh Disadvantages.

Child support and vital records agencies believe in-hospital programs are helpful or very
helpful to parents (47 child support and 42 vital records agencies). When asked to select
specific advantages in-hospital programs provide to parents, 37 respondents (73 percent)
selected five or more. The most common advantages identified are the father is more
receptive at birth, the father is more likely to be present at birth, and parents are
guaranteed exposure to their parental rights and responsibilities (see Table 1).


                  Table 1: ADVANTAGES FOR PARENTS IN ACKNOWLEDGING
                               PATERNITY AT THE HOSPITAL

                                                              Child Support   Vital Records

  Father More Receptive to Acknowledging at Birth 
               96%             76%
                                                                  (48)            (35)

  Father More Likely to Be Present at Birth than Later 
          86%             76%
                                                                  (43)            (35)

  Parents Receive Exposure to Rights and Responsibilities 
       86%             48%
                                                                  (43)            (22)

  Paperwork Easier Than After Hospital Dismissal 
                80%             74%
                                                                  (40)            (34)

  Parents Avoid Cost and Stress of Adjudication 
                 78%             59%
                                                                  0%              (27)

  Parents Avoid Fee for Amending the Birth Certificate 
          68%             53%
                                                                  (34)            (24)




                                                      5

The sharpest contrast between child support and vital records agencies in reporting
advantages was the exposure of parents to their rights and responsibilities. Forty-three
child support respondents see this as an advantage, compared with only 22 vital records
agencies. This may be caused in part by some vital records agencies not recognizing
exposure about rights and responsibilities as an objective of the in-hospital program (see
Table 8 for further explanation of the role of hospital staff).

State child support and vital records agencies find far fewer disadvantages with in-hospital
acknowledgments (see Table 2). Twenty-two respondents selected only one disadvantage,
and only one listed four or more disadvantages. Both child support and vital records
agencies perceive the biggest disadvantage to be that parents may acknowledge without a
true understanding of what they are signing. Vital records respondents unanimously view
discouragement of mothers to seek prenatal care as a disadvantage, but child support
agencies select this only rarely. We find no ready explanation for this discrepancy, but
note that most vital records offices are housed within States’ public health departments
and, therefore, State registrars may be closer to the issue of prenatal care.


               Table 2: DISADVANTAGES FOR PARENTS IN ACKNOWLEDGING
                              PATERNITY AT THE HOSPITAL

                                                                        Child      Vital
                                                                       SUPpofi    Records

  May Acknowledge Without a True Understanding of Its Implications 
    61%         78%
                                                                         (22)        (25)

 May Discourage Some Fathers from Visiting the Hospital 
               31%         13%
                                                                        (11)         (4)
 May Lead to More Rescissions 
                                         14%         25%
                                                                         (3          (8)
  May Jeopardize Mom’s Custodial Rights 
                               14%          9%
                                                                         (5)         (3)
  May Discourage Mothers from Prenatal Care 
                            6%         100%
                                                                         (2)         (45)

PRACTICES AND PROCEDURES

States are Fairly Uniform in the Routine Administration of Acknowledgments.

Legislation in 47 States already requires the father to sign an acknowledgment of paternity
before his name may be added to the birth certificate, a provision found in PRWORA. In
22 States, parents may acknowledge paternity before a child is born and 27 States have
provisions allowing the father to sign an acknowledgment even if the mother is married to
someone else. The most common method for accomplishing this is a three-way paternity
affidavit which requires the signatures of the father, mother and husband (see Appendix
A-3).



                                                   6

For parents who wait until after their hospital stay to acknowledge paternity, most States
(47) allow the birth certificate to be amended to add the name of the father after the birth
has been registered. Thirty-four of these States (71 percent) charge a fee for post-
registration amendment, ranging from two to twenty-six dollars, with a median payment
of ten dollars.7 When asked whether they think this fee discourages parents from putting
the father’s name on the birth certificate, vital records agencies in only three States view
the fee as a problem. A few of the States which charge are willing to waive fees if
requested by the parents or by the child support agency.

States have Made Progress in Transfer-kg Paternity Information from Hospitals to
Child Support Agencies, But Report a Continued Need for Improvement in the Methods,
Timeliness and Completeness of Documentation Procedures.

Acknowledgments typically go throuph vital records systems before reachin? child      support
agencies, and are transferred more often bv paper than electronically.

Paternity information must get from the birthing h   ital to the child support agency for a
support order to be established. As discussed earl     acknowledgments may be completed
on separate affidavit forms or may be included on e birth certificate itself. The path of
documenting acknowledgments varies by Sta               ally goes from birthing hospitals to
the vital records agency, and then to the child su rt office. Acknowledgment
information is received by child support offices      one or more of the following basic
methods: 1) 23 State vital records systems                 wledgments from birthing
hospitals and send photocopies of these to child s  ort, either automatically or by request
(43 percent); 2) 18 States use a multi-copy ca      ss paternity affidavit form, with one
copy typically going to the mother, one to the      , one to vital records and a fourth to
child support enforcement’, allowing both vital re    s and child support to receive
acknowledgments directly from the hospital (34       nt); 3) 15 State vital records
systems provide child support personnel with         access to paternity and birth
registration information (28 percent); 4) five      ital  records systems create an
electronic or paper list of available acknowledgm  s from which child support may
request copies (nine percent); and 5) in two                1s send photocopies of
acknowledgments to child support and original dot     ents to vital records (four
percent) .9*10

Child Support agencies desire on-line access to natemity or birth registration databases
managed by vital records. 


Although 44 vital records agencies 

Certificate (EBC) systems for registration of 
           the remaining vital records
agencies all report plans to go “paperless, ” 
            of child support offices still
receive only paper documentation of paternity 
                     from vital records. l1 As
stated above, child support respondents in 13 State 
 (28 percent) are able to access
information on-line. One method of 
                                 records agencies to
transfer information upon request or 
                 the  primary  public health database to
a smaller database shared by child support offices. 
                     support access to the


                                               7     I

portion of the birth registration information directly related to paternity acknowledgment. 

This method of limited access may be a result of State privacy statutes which prohibit 

access to and use of birth registration information by child support unless a support case 

has been opened. In these cases, vital records grants only “authorized” access to paternity 

information. In Kansas, for example, the vital records agency provides child support staff 

with electronic access to a limited number of data elements for all paternity 

acknowledgments received, regardless of their child support status. When caseworkers 

find acknowledgments on-line that are needed for child support cases, they request a 

certified copy of the acknowledgment. 


Another method of establishing on-line capability allows child support to directly access 

vital record’s birth registration database on a read-only basis. This method is typically 

faster than the method mentioned above, which requires vital records agencies to transfer 

information to a second shared database. One State which uses this method reports child 

support has on-line access to birth registrations, including Social Security numbers of 

parents, just one day after the data arrives in the State vital records office. An alternative 

to on-line access requires vital records agencies to create an index for child support from 

its birth registration database, allowing child support caseworkers the electronic use and 

storage of information. The index may or may not include all available data elements. 

For example, the vital records office in California optically scans acknowledgments into a 

database where key data fields are entered to create an index. The index information is 

then provided electronically to child support offices on diskette. 


Twenty child support agencies report that providing on-line access to paternity databases is 

the most important change vital records agencies could make to their end of the voluntary 

acknowledgment process. As both vital records and child support agencies begin to rely 

more on automation, on-line systems, once in place, may increase efficiency in 

transferring information. At this stage in program implementation, however, those who 

receive information electronically did not report faster service than those with paper 

transmission. Due to this marginal outcome and to the uniqueness of some State’s 

procedures, it shouldn’t be assumed that electronic transfer is always preferable. A 

number of child support agencies, particularly in States which have few local or regional 

agency offices, report they are satisfied with paper transfer and may not wish to expend 

the cost and man-hours required to make such electronic transfer systems operational. 


Timeliness in receiving acknowledgments is a problem for some child sunport agencies. 


Nine child support agencies (21 percent) are concerned about timeliness in receiving 

paternity information, and six of these offices report waits of three months or more for 

paper or electronic transfer. Of the other responding States, 28 report no problem in 

receiving documentation; three consider their program too new to evaluate; four report 

lateness as only an occasional problem, and two didn’t know if timeliness was a 

problem. ** Some of those who were not concerned about timeliness had to wait just as 

long for acknowledgment information as those who were concerned, but said that the wait 

was not a problem. One child support respondent wrote that this time “can be used for) 

preparing other aspects of the case. ” But delays in receiving acknowledgment 



                                               8
information may cause unnecessary scheduling of paternity interviews and prevent the
child support agency from accurately reporting acknowledgments received.

If the wait for acknowledgments is excessive, it is usually the transfer from vital records
to child support that presents a problem. Birthing hospitals are never cited as a cause of
excessive wait: forty-two State vital records systems (at the State, regional or local level)
receive acknowledgment information from birthing hospitals within two weeks, with a
median time of 10 days. Hospitals are just as timely in providing information to child
support offices in States where acknowledgments are sent by hospitals to both State
agencies simultaneously. For example, Virginia hospitals send copies of acknowledgments
in batches to child support the fifth working day of each month. Among States which
require information to go through vital records to child support, however, there is large
variance in the amount of time child support must wait for information. Reports of
average transmission time vary from one day to six months, with most occurring around
thirty days.

Information is sent by vital records to child support either upon request, in batches, or as-
received. We found no real differences in timeliness between these methods. The key to
reducing problems appears to be in jointly establishing a firm schedule that is reasonable
to both agencies and that suits the circumstances and needs of the individual State. In
Kentucky, an administrative assistant from the child support office simply goes to the
State vital records office in person each week to collect paternity acknowledgment
information. No matter which method is used, acknowledgments in a given State could
actually travel through four agency offices: hospitals could send all birth registration
information to the local registrar or town clerk (l), who may check the forms for
completeness and send them on to the State vital records office (2), who upon formally
registering the births sends information to the State child support office (3), through which
the acknowledgment is sent to local child support enforcement caseworkers (4). However,
we find no connection between delays and the number of offices involved.

Child   support   agencies want more birth information for establishing child   support   orders.

Twenty-two child support respondents report they would like more birth registration
information than they currently receive, typically for locating the noncustodial parent after
a child support order has been issued or for matching child support cases to paternity
acknowledgments. In States which do not use a separate form for in-hospital
acknowledgments, child support agencies are likely to receive only the portion of the birth
certificate which includes the child’s name and parent’s names, dates of birth, signatures,
and possibly Social Security numbers. Birth certificates are likely to contain much more
information and, depending upon their obligation to privacy statutes mentioned above,
vital records agencies might be able to provide child support with a greater number of
data elements. In States which use a separate paternity affidavit for all acknowledgments,
additional data elements may need to be added to the form. When asked what additional
information they would like to receive, child support agencies most frequently cite Social
Security numbers and the father’s and mother’s addresses and employers.



                                                9

Case-Matching is Performed by Half of States, Using Names of the Parents and Child.

Just over half of State child support enforcement agencies report using case-matching
procedures which allow them to match new paternity acknowledgments against existing
child support cases. Of the 26 States which match, 20 rely on the central State child
support office for matching, three on the local or regional child support offices, two on
vital records offices and one State uses a private contractor. These case matches are most
often completed by States continually as acknowledgments come in, but a number of
States match new acknowledgments to cases in batches on a monthly or weekly basis. A
few perform daily case-matches which include both new and existing acknowledgments.
Information matched most often includes mother’s name (24 States), father’s name (23
States) and child’s name (22 States). Other matching information includes child’s date of
birth, mother’s and father’s Social Security Numbers, and mother’s date of birth.

Both Child Support and Vital Records Agencies Give Mixed Responses on the Effect of
Notarization Requirements, But Most Report it Has a Positive Impact or No Impact on
Program Operations.

Forty-three vital records offices report their State requires notarization of paternity
acknowledgments, and the remainder require a witness. Some minor policy variations
exist, such as the State which requires notarization only for minor parents, and a few
States which notarize only when the acknowledgment is signed outside of the hospital
setting, using a witness for in-hospital signings. Varied viewpoints exist regarding
notarization, with some believing it creates an administrative barrier to acknowledgment
and others advocating its formality. A surprising number of agency respondents are
neutral on the subject. Only two vital records offices (5 percent) in States which require
notarization claim the requirement has a negative impact on voluntary acknowledgment
procedures, while 17 States (41 percent) report a positive impact and 22 States (54
percent) report it has no impact on program operations. But of child support respondents
in these same States, more report a negative impact (10 States or 28 percent), while nearly
half (49 percent) believe notarization to have a positive effect and the remaining 8 States
(23 percent) report no impact. Of the seven child support agencies in States not requiring
notarization, six opposed the use of notaries.

Proponents of notarization gave comments such as “Notarization ensures that we know the
identity of the people signing ” and “Parents take the process more seriously if a notary is
present and seem to appreciate the formality notarization brings. ” Opponents of
notarization claim that notaries are often unavailable during unmarried mothers’ short
hospital stays and that it is too difficult for rural hospitals to keep notaries on staff. One
vital records office contributed the following: “We did require notarization, but it ofen
disrupted the process. An investigation into the reason notarization was required revealed
that the first State to do acknowledgments required it so everyone else followed! ”




                                              10 

INTERACTION BETWEEN CHILD SUPPORT AND VITAL RECORDS AGENCIES

In a Number of States, Both Child Support and Vital Records Agencies Appear Unclear
About Their Own and Each Other’s Responsibilities in Administering Acknowledgments.

There is evident confusion over the division of responsibility between child support and vital
records agencies in administering acknowledgments. When asked which agency in their State
is primarily responsible for the voluntary acknowledgment process, child support and vital
records agencies in nineteen States gave different answers. Of those which gave
contradictory answers, the responses are as follows: nine States believe they alone are
responsible when their counterpart reports sharing responsibility equally, seven States each
name themselves as carrying primary responsibility, two States believe the other agency is
alone in responsibility when that agency claims equal sharing of responsibility, and one State
disagreed as to whether their shared responsibility lies at the State or the regional level. It
appears that a number of agencies are unclear about what the other is doing, and this could
create delays in documentation, as well as gaps in service to hospitals and in outreach to
unmarried parents.

While Some of Child Support Agencies Still Lack n-es to Vital Records Agencies, Most
Already Report a Considerable Degree of Cooperation.

A varietv of mechanisms for enhancing interagency collaboration are used.

The level of collaboration between vital records and child support agencies varies greatly by
State. A few child support agencies have established documentation procedures which
largely circumvent their State’s vital records agency. For example, one State possesses a
statute which instructs hospitals to forward completed acknowledgments to the State child
support agency which serves as the sole repository of the forms. Vital records is therefore
not involved with this State’s voluntary acknowledgment program and receives only the birth
certificates for registration. Nationwide, however, only three States report their child
support agency houses their State’s sole paternity database.

Most State child support offices hope to work together with vital records to administer the
voluntary acknowledgment process, and with the implementation of PRWORA, vital records
agencies will be required to become involved in processing acknowledgments. By working
together, many child support officials hope to reap the benefit of vital records’ long-standing
relationship with birthing hospitals. The most common mechanisms in facilitating the
acknowledgment process include communication between key personnel and informal
communication (see Table 3 for a complete listing).13 Examples of other types of
interagency cooperation not mentioned in the table include jointly sponsoring State
legislation, sharing aggregate data regarding nonmarital births, and organizing in-house or
contract training of local registrars and county child support staffers. New Jersey, among
other States, has coordinated joint training sessions for child support and vital records staff.




                                                 11 

                                 Table 3: INTERAGENCY MECHANISMS

                                                              Child Support     Vital Records

  Communication Between Key Personnel                              86%              71%
                                                                   (44)             (36)

  Informal Staff Communication                                     77%              75%
                                                                   (3%              (38)

  Shared Training Efforts for Hospital Staff                       51%              51%
                                                                   (26)             (26)

  Interagency Agreement                                            39%              47%
                                                                   (20)             (24)

  Shared Automated Database                                        37%              35%
                                                                   (1%              (18)

 Joint Agency Committee or Task Force                              18%              16%
                                                                    (9)              (8)

  Shared Training Efforts for Parents                              14%               12%
                                                                    (7)              (6)



States which employ multinle interagency mechanisms also report more effective child
sunnort and vital records agency relationshins and fewer barriers to cooperation.

Child support and vital records agencies which use more than one interagency mechanism
listed in Table 3 are much more likely to rate their relationships as effective or very
effective. In fact, the effectiveness rating by both became more positive as the number of
interactive tools increased. Of those with only one mechanism in place, 48 percent rate their
relationship with their counterpart as effective or very effective, compared with 82 percent
which use four or more mechanisms. Nearly half of these also use more interactive training
methods (workshops, on-site visits). Another measure of satisfaction is the absence of
perceived barriers to interagency cooperation. As the number of interagency mechanisms
used increases, child support and vital records agencies are more likely to report no barriers
to collaboration: 25 percent of those which use only one mechanism perceived no barriers,
whereas 43 percent of those who use four or more mechanisms perceived no barriers.
Therefore, in States where agencies communicate more often, there are fewer perceived
barriers to program operations.




                                                12 

Some Child Support Agencies May Perform Duties Alone that Are Better-Suited to
Collaboration with Vital Records Agencies.

Vital records agencies often already have the infrastructure needed to collect and store 

paternity information. 


State child support offices sometimes create structures that may already be in place. One 

example is the collection of birth registration and paternity acknowledgment data. State vital 

records offices are usually better-equipped to manage large databases, and in States where the 

child support offices capitalize on this ability there are interagency agreements which allow 

for the regular transfer of both individual and aggregate data from vital records agencies to 

child support agencies. In trying to find data which may eventually be used by Federal and 

State child support officials for performance measures of voluntary acknowledgment 

programs, we asked vital records offices what data relating to paternity they already collect. 

The most common data elements collected by vital records are nonmarital births that 

occurred in the State (38 States), nonmarital births to State residents (37 States), 

acknowledgments received from all sources (29 States), acknowledgments received from 

hospitals (26 States), and acknowledgments received from each individual hospital (16 

States). If child support agencies communicate their needs, vital records offices may be able 

to add other desired fields to their birth registration database. 


Both vital records and child sunnort agencies offer training for hospital staff. 


Another area of possible underutilization of pre-existing vital records services is the training 

of hospital staff in the voluntary acknowledgment process. Both child support and vital 

records agencies currently target many of the same hospital staff and use similar methods. 

All of the vital records agencies responding report they train hospital staff in the birth 

registration process. Forty-seven States train birth registration clerks, 18 States train 

obstetrics nurses and 15 States train additional obstetrics staff. Other hospital staff who may 

receive training from vital records include medical social workers, nursery attendants and 

pediatrics staff. However, although hospital staff training by vital records is nearly 

universal, 12 vital records agencies (24 percent) do not include information about the 

voluntary paternity acknowledgment process in their birthing hospital training. 


As for child support agencies, 46 of the 51 IV-D respondents report they train hospital staff 

in the voluntary acknowledgment process as is mandated by OBFU. Forty-two child support 

offices train birth registrars, 29 train obstetrics nurses and 24 train other obstetrics staff. 

Other hospital staff targeted are medical social workers, nursery attendants and pediatrics 

staff. The type of training and degree of effort varies widely, with brochures and on-site 

seminars topping the list (see Table 4). 





                                                  13 

           Table 4: TYPE OF TRAINING PROVIDED TO BIRTHING HOSPITAL STAFF

                                                          Child Support        Vital Records

 Brochures/Pamphlets                                          89%                  54%
                                                              (41)                  (26)

 On-site Lectures or Seminars                                 67%                  71%
                                                              (31)                 (34)
 Other (examples: regional workshops, individual              65%                  40%
 meetings, l-800 numbers, etc.)                               (30)                 (1%
 Training Video                                               33%                  21%
                                                              (15)                 (10)

Although it is unlikely to replace training by child support agency staff, adding paternity
acknowledgment materials to vital records agencies’ on-going, systematic training may save
child support agencies time and resources used to meet continuing hospital needs and enhance
hospital participation. Depending upon State-specific factors such as respective size of
agency staff and number of birthing hospitals served, it may be appropriate for child support
to prepare training materials which address the paternity acknowledgment process and
encourage vital records to help in distributing the information. Vital records offices have
long communicated with hospital personnel on the birth registration process and, as reported
above, they usually enjoy positive relationships with hospital birth registration staff. Even if
child support staff prefer to conduct training efforts on paternity themselves, they may still
benefit from some combination of effort with vital records in holding joint hospital training
seminars, distributing forms or brochures, creating new instructional materials and
conducting follow-up contact with hospital birth registration personnel.

Regardless of the training methods used, child support and vital records agency follow-up to
initial hospital training efforts is lacking. Most child support agencies (39 States) rely
primarily on hospitals notifying them when in need of additional instruction and materials for
new hospital employees. More proactive methods by child support to provide additional
instruction are less common: 18 child support agencies conduct periodic phone checks and
16 conduct status checks in person. Only six State child support agencies automatically send
new materials throughout the year. Hospital staff training materials are most often created
by child support offices (44 States), with some materials created by vital records staff (16
States), private contractors (11 States), local child support offices (seven States), and OCSE
(two percent).




                                                   14 

A Majority of Both Child Support and Vital Records Agencies Characterize Their
Relationship with the Other Agency as Effective or Very Effective, Despite Identifying a
Number of Barriers to Collaboration.

When asked to judge their relationship with the State child support enforcement agency,
31 vital records offices (62 percent) report the relationship is effective or very effective.
Another 13 vital records offices (26 percent) say that their relationship is somewhat effective
and only 6 States (12 percent) claim an ineffective relationship. The ineffective relationships
are reported to be largely due to the perception that their child support agency is trying to
 “reinvent the wheel ” and establish birth registration policy and procedures without first
consulting them. Typical comments included: “Child support ignores vital records
programs until they start to implement and then they initiate discussions, ” and “The mission
and priorities of one agency are not necessarily those of the other. ” Some believe vital
records agencies would more readily become involved if paternity acknowledgments were not
viewed as solely benefiting child support. A number of respondents from both child support
and vital records agencies echo this opinion that paternity acknowledgment be viewed from a
broader public health perspective. One agency representative reports the following: “One of
the major impacts of this policy is the d#iculty in projecting the image that paternity
establishment is for all children born to unmarried parents and not only for child support
clients. ”

Of child support agencies, 36 respondents (74 percent) judge their relationship with vital
records to be effective or very effective. Another 11 (22 percent) assess their relationship as
somewhat effective and only two child support offices claim an ineffective relationship with
their vital records counterpart. When child support respondents offer any negative comments
about vital records, they typically mention issues such as a slow pace of automation and
excessive fastidiousness regarding form completion. As shown in Table 5, child support and
vital records agencies differ greatly in what they see as the most significant barriers to a
more effective relationship. Twenty-two child support agencies (45 percent) find the greatest
barriers to be differences in automation, compared with only 6 vital records agencies (12
percent). Vital records find little or no funding from child support for their services to be
the greatest barrier, with 26 States citing this 54 percent), as contrasted with only 12 child
support agencies (25 percent) mentioning funding. Of those listing barriers, 42 percent of
vital records and 54 percent of child support agencies list only one, indicating a fairly
positive view of the potential for interagency collaboration.




                                                15 

II                    Table 5: BARRIERS TO INTERAGENCY COOPERATION

                                                                 Child Support     Vital Records

 No Barriers to Interagency Cooperation                               31%              27%
                                                                      (15)             (13)

 Differences in Automation                                            45%              12%
                                                                      (22)              (6)

 Little or No Funds from Child Support                                25%              54%
 Agency to Vital Records Agency                                       (12)             (26)

 Inflexibility by One Or Both Agencies                                25%               8%
                                                                      (12)              (4)

 Statutory Conflict                                                   16%              17%
                                                                       63)              (8)

 Unclear About Relative Agency Responsibilities                       12%              25%
                                                                       (6)              (12)

 Poor Communication                                                   10%               21%
                                                                       (5)              (10)


Fifteen child support agencies (31 percent) and 13 vital records agencies (27 percent) report
no barriers at all to interagency cooperation. Nearly all child support and vital records
agencies (96 percent), indicating no barriers to cooperation, also report their relationship
with the other agency as effective or very effective and that they have a high level of
interagency communication: all of the child support agencies reporting no barriers to
interagency cooperation use informal communication and 87 percent of them use
communication between key personnel.

Both State Agencies Express Support for Payments by Child Support to Vital Records.

Vital records agencies strongly desire child sunnort payment for their services.

The issue of payment by child support agencies for vital records services is the most
prominent of the barriers listed by vital records agencies in Table 5, and most vital records
agencies believe they should be paid by child support. Twenty-two vital records offices
report they are being paid or have been paid in some manner by their child support agency
for services connected to voluntary paternity acknowledgment. However, fewer child
support agencies (19) report they pay vital records. This discrepancy may reflect hesitancy
on the part of a few child support agencies to claim a payment policy because they are
unsure about the validity of paying vital records under Federal guidelines. I4 Of child
support offices which do not pay, four claim that payment to vital records is not allowed



                                                  16 

under Federal regulation. At the same time, 17 of the 19 child support agencies which do
pay report using Federal funds.

Of vital records agencies which are paid, 81 percent (17 States) report the additional funds
are beneficial, helping their offices to process voluntary acknowledgments. They report
being paid most often for issuance of certified copies, generation of monthly aggregate
reports, prorated computer use time and data entry of paternity forms. Some others are paid
for on-line access to paternity databases and a couple are paid in hours by assigning a data
entry staff person employed by child support to work in vital records. Of the 30 vital
records agencies which have never been paid, 26 desire payment. When asked why they
believe they should be paid for paternity acknowledgment services, 15 report they believe it
unfair to expend resources on a child support objective without compensation, 13 claim they
can provide better service to child support if they are paid, and 10 report they simply need
more money to process acknowledgments. As mentioned before, regulations written to
interpret OBRA require that voluntary acknowledgments become a part of the birth
registration process, and PRWORA mandates involvement of vital records in hospital-based
programs. Alluding to this provision, the Massachusetts child support office writes about the
importance of compensating vital records for involvement: “Ztmakes sense for RVRS (vital
records) to be central repository of all acknowledgments, given their traditional function of
maintaining records and this would provide at least one link between acknowledgments and
birth certificate data matches and resulting reports. (This incorporation could) possibly
require programming changes on the part of the vital records agency. ”

Child support agencies are divided over whether to pay vital records for services and
products related to paternity. but a maioritv who do pay report services or relationships have
improved as a result.

Because child support officials may favor paying vital records but feel unable to pay, or
conversely may have made an agreement to pay but no longer favor such payment, we asked
child support respondents about this important issue in two ways. First, we asked if they
favor paying and why or why not. Next, we asked if they do pay or ever have paid and
what was the result. Half of responding child support agencies say they believe they should
pay vital records for products and services relating to voluntary paternity acknowledgment,
whether they currently pay or not.

The most prominent reasons given by child support agencies for paying vital records agencies
are simply that it seems unfair not to compensate vital records for work which primarily
benefits child support enforcement (16 States), that vital records needs more money to
process acknowledgments (15 States), and they believe they may receive better service from
vital records if they pay (14 States). Of the remaining half of child support agency
respondents who do not favor paying, reasons given include the belief that it is the vital
records agency’s job to process all birth registration documents including paternity
acknowledgments (20 States), that the IV-D budget is already too limited (3 States), that they
send child support staffers to help process acknowledgments in the vital statistics offices (3
States), and that they don’t believe the money is truly needed (2 States). Of the 19 child
support agencies which report paying vital records agencies, 17 pay currently and two


                                                17
formerly paid but no longer do so. When asked if payment improved or enhanced services,
11 child support agencies who paid (69 percent) said they did receive better service and/or
experienced an improvement in their interagency relationship with vital records.

CONTACT WITH BIRTHING HOSPITALS

Only Half of State Child Support Agencies Monitor Hospital Participation.

Federal law requires under OBRA that child support agencies annually monitor the
participation of every birthing hospital in their State. At this point in implementation, only
27 child support offices (53 percent) monitor hospital participation. Further, in nearly all of
these States their monitoring consists only of collecting data on the number of
acknowledgments received from the hospital compared with the number of nonmarital births
the hospital assisted. This measure requires tracing acknowledgments to each specific
hospital. Fourteen other State child support agencies (27 percent) track the number of
acknowledgments that come from each birthing hospital, but do not yet compare these figures
to the number of nonmarital births assisted. Only a few child support agencies have begun
to truly assess hospital participation by also evaluating the process the hospital uses to
complete acknowledgments, such as hospital staff involvement or parent use of outreach
materials. Further description of these assessment efforts are included in a companion report
subtitled “Best Practices in Education and Outreach.” For child support agencies which pay
hospitals for processing acknowledgments, the financial transaction required guarantees a
natural count or tracking of acknowledgments per birthing hospital.

The Majority of State Child Support Agencies Choose Not to Pay Hospitals for Completed
Paternity Acknowledgments, But Most Which Do Pay Believe Payment Helps Hospitals and
Enhances their Acknowledgment Program.

Twenty child support agencies (40 percent) report they either do pay or had paid hospitals
for acknowledgments received. The payment amounts range between 10 and 25 dollars per
acknowledgment, with 11 States paying the median of 20 dollars. All but one State agency
which pays hospitals reports an improvement in service and in their relationship with
hospitals as a result of payment. In States which chose not to pay hospitals, the main
reasons given by child support agencies include: it is the hospital’s job to process birth
registration information and therefore they shouldn’t be compensated (13 States); child
support funds are too limited to pay (12 States), and the amount of money is too small to
matter to hospitals (four States).

Vital Records Agencies Report Somewhat More Effective Relationships with Birthing
Hospitals than Do ChiM Support Agencies.

Vital records agencies report close ties with their State’s birthing hospitals. Forty-four vital
records offices (90 percent of those responding) judge their relationship with hospitals as
effective or very effective. Of child support agencies, 36 (72 percent) report effective or
very effective working relationships with birthing hospitals. Of course, hospital birth
registrars are more accustomed to working with vital records personnel, having long standing


                                                 18
relationships due to the birth registration process. Vital records staff in a few States report
they know the birth registrars by name in nearly every hospital in their State. Child support
offices which have worked closely with their vital records counterparts appear to have the
most positive relationships with birthing hospitals. In these cases, hospitals may benefit from
greater interagency collaboration because their State child support and vital records agencies
have constructed a unified set of procedures and send hospital staff a clear, repetitive and
singular State message on the voluntary acknowledgment process.

Both Child Support and Vital Records Agencies Perceive Similar Barriers to Hospital
Program Participation, the Greatest Being Lack of Staff to Administer Acknowledgments.

Although vital records agencies may work well with hospitals regarding the birth registration
process, we couldn’t assume that these collegial relationships extended to the voluntary
acknowledgment process specifically. Therefore, we asked vital records agencies for any
internal facility barriers which may hamper hospital participation in acknowledgment
programs. The most common barriers to hospital implementation are shown in Table 6, but
over 20 percent of all agency respondents report no internal barriers to hospital participation.
Child support and vital records agencies strongly agree in identifying lack of hospital staff as
the most significant barrier to hospital participation.


                   Table 6: INTERNAL BARRIERS TO HOSPITAL PARTICIPATION

                                                                   Child Support   Vital Records

 No Barriers Found 
                                                   22%             20%
                                                                       (11)            (10)
 HospitaI Understaffed to Deal with the Acknowledgment Process 
       64%             63%
                                                                       (32)            (31)
 Staff Doesn’t Recognize the Importance of Their Role 
                46%             20%
                                                                       (23             (10)
  Staff is Inflexible and Resistant to Change 
                        20%              8%
                                                                       (10)             (4)

 Little or No Payment to Hospitals by Child Support Agency 
           16%             N/A
                                                                        (8)


State Child Support and Vital Records Agencies Report Hospital Staff are Generally
Positive and Capable of Administering Acknowledgments, But Appear Unclear Regarding
the Appropriate Role of Hospital Staff in Communicating with Unmam’ed Parents.

Few hospital staff are viewed by child support and vital records agencies as reluctant to
participate in voluntary acknowledgment programs.

Nearly half of child support agencies (23 States) report no birthing hospitals are reluctant to
participate in their paternity programs. Of the remaining 26 States which responded to this
question, most describe only a few hospitals as reluctant. Hospital associations play a role in


                                                          19 

encouraging participation in voluntary paternity acknowledgment programs in 35 States,
according to child support respondents. These organizations typically send letters
encouraging hospitals to participate, and in a few cases are also involved in staff training.

While both child support and vital records agencies give moderately high ratings to the
ability and effort of hospital staff in administering acknowledgments, vital records agencies
are more apt to assess these elements as fair or poor.

Vital records and child support agencies generally endorse hospital staff, although
vital records agencies judge the ability and effort of hospital staff somewhat lower
than child support. This is noteworthy, considering vital records agencies clearly
have stronger, on-going relationships with hospital birth registrars. Thirty-nine child
support respondents rate hospital staff ability as excellent or good, compared with
only 31 vital records agencies. Similarly, staff effort is rated excellent or good by 31
child support agencies but only 25 vital records agencies. Taken as a whole, child
support and vital records agencies rate hospital staff ability higher than their effort
(See Table 7). Based on other study findings, this perception of hospital staff
possessing more ability than the effort they put forth may be due more to lack of time
than lack of interest on the part of hospital staff. Some agency respondents believe
hospital staff effort would be greater if there was more individual accountability. One
child support agency added the following: “. . . hospital stafs would be more
conscientious about explaining the program if they were required to send a signed
statement from the mother stating that she had the program explained to her and that
she chooses not to participate. ” Two States currently use such a form which
requires the mother to sign that she has received information about the process and
chooses not to acknowledge paternity in the hospital or is unable to do so (see
Appendix A-4 for an example). Wider use by child support agencies of hospital
monitoring and assessment procedures may also address this issue of accountability.


                  Table 7: ABILITY AND EFFORT OF HOSPITAL STAFF

                                      Ability                          Effort

                          Child Support     Vital Records   Child Support   Vital Records

  Excellent                    19%              12%             23%              7%
                                (8)              (5)             (9)             (3)
  Good                         76%              60%             56%             51%
                               (31)             (26)            (22)            (22)

  Fair                         5%               21%             18%             35%
                                (2)              (9)             (7)            (15)

  Poor or Very Poor            0%                7%              3%              7%
                               (0)               (3)             (1)             (3)




                                                   20 

 Child support and vital records agencies disagree regarding the desired role of
 hospital staff in administering acknowledgments.

 Child support and vital records agencies appear undecided about the responsibilities of
 frontline hospital staff in assisting unmarried parents through the acknowledgment
 process. Our survey outlines three areas of potential hospital staff responsibility:
 acknowledgment documentation; parental rights and responsibilities; and advocacy of
 paternity acknowledgment. The first two are clear responsibilities of hospital staff.
 Staff must help to facilitate the documentation of the voluntary acknowledgment, just
 as they always have with birth registration, and, according to OBRA and PRWORA,
 must also inform parents of their rights and responsibilities. However, agency
 respondents did not uniformly identify these as appropriate hospital tasks.

 In regard to hospital staff acting as advocates of paternity acknowledgment, their
 appropriate role is somewhat controversial. Some believe that hospital staff should
 not actively urge or encourage acknowledgment, especially if the hospital is being
 paid for submitting completed forms, as this may jeopardize the voluntary nature of
 acknowledgment. However, 34 child support and 23 vital records respondents
 support this more proactive role by hospital staff (See Table 8).


                                 Table 8: ROLE OF HOSPITAL STAFF

                                                                       Child Support       Vital Records
     Helping to Facilitate Paper and/or Electronic Documentation           96%                 80%
                                                                           (49)                (40)
�    informing Parents of Their Rights and Responsibilities                90%                 74%
                                                                           (46)                (37)


 II  Actively Urging and Encouraging Parents to Acknowledge
                                                                   I
                                                                           67%
                                                                           (34)        I
                                                                                               46%
                                                                                               (23)


 CONTACT WITH PARENTS

 Child Support Agencies Report that Putative Fathers More Often Create a Barrier to
 Acknowledging Paternity than Do Mothers, and Consider the Parent Relationship to
 be the Most Important Factor in Choosing to Acknowledge.

 Of the 32 State child support offices which responded to this question, 18 (56 percent)
 believe it is most often the father who creates a barrier to acknowledging paternity,
 11 (35 percent) report the mother and father share responsibility equally for not
 acknowledging and three (nine percent) report the mother as most often reluctant.
 When State child support agencies were asked what they believe guides unmarried
 parents in choosing to acknowledge, a number of factors were selected by respondents
 as having a strong or very strong influence: 1) new parents cohabitating or in long
 relationship (38 States); 2) emotional feelings with baby’s arrival (37 States); and 3)
 exposure to idea of paternity acknowledgment from hospital staff (30 States). Factors


                                                              21
reported to influence parents not to acknowledge include: 1) bad relationship between
the new parents (42 States); 2) unmarried father doesn’t visit the hospital (39 States);
3) new mother’s fear of sharing custody (35 States); 4) short length of hospital stay
(33 States); and 5) lack of understanding about paternity (30 States). In the
companion report subtitled “Hospital Experiences in Sample States” we provide more
detail on these potential influences.

Nearly All Child Support Agencies Report Conducting Some Type of Outreach to
Unmarried Parents on Paternity Acknowledgment.

Forty-six child support agencies conduct education and publicity aimed at unmarried
parents. Among States which do outreach, the most common method is a brochure
(44 States), followed by a video (23 States), and workshops or lectures (20 States).
Twenty-five States offer these materials in languages other than English, with Spanish
being the most frequent alternative. These outreach materials are created primarily
by child support agencies at the State level (41 States), but many are also developed
by private contractors (14 States), local or regional child support staff (five States),
vital records agencies (five States) and OCSE (two States).” In the companion
report subtitled “Best Practices in Education and Outreach” we will provide details
regarding the variety of educational outreach techniques which States and hospitals
use in their voluntary paternity acknowledgment programs.

Half of State Outreach Materials to Unmarried Parents Positively Encourage
Paternity Acknowledgment, While the Other Half are Strictly Informational.

Beyond mapping out the procedure for establishing paternity both at-birth and post-
birth and listing the rights and responsibilities that accompany acknowledgment
(including the obligation for child support), parent outreach brochures typically
address issues such as welfare eligibility, custody, genetic testing, status of minors,
interstate procedures, and use of the father’s surname. A number of States also
choose to address more personal issues in their materials, using a Q & A format to
answer questions such as, “What if the mother was using birth control?” and “Why
should I acknowledge if the father and I are getting along and he is already helping
me support the child?” About half the States appear to use a very positive,
encouraging tone which focuses on the benefits of fatherhood, while the other half
offer more formal materials which primarily detail the legal aspects of paternity and
the procedures required for establishment. The most frequent title used for
brochures, videos and informational packets is, “Paternity Means Legal Fatherhood. ”

A Small Number of Child Support Agencies Follow-up After Discharge With
Parents Who Do Not Acknowledge Paternity During Their Hospital Stay.

Seven child support offices (14 percent) contact all unmarried mothers who do not
acknowledge paternity in the hospital. The purpose of these contacts is to offer
mothers another opportunity for assistance in acknowledging before the birth is
registered. A phone call or letter a week or more after dismissal is typical. Child


                                                 22
support offices most often receive the birth registration information necessary for
these follow-ups from State or local vital records agencies. No vital records agency
reports use of a follow-up procedure. As part of a demonstration project sponsored
by OCSE, the State of Colorado contacted all parents who did not acknowledge
paternity within 60 to 90 days. This follow-up was conducted irrespective of the
family’s child support status, and so, included all unmarried parents who do not
acknowledge paternity at birth. However, a number of States have privacy statutes
which would inhibit child support staff from receiving birth registration information
such as phone numbers and addresses from unmarried parents not in the child support
caseload.




                                               23 

                      RECOMMENDATIONS

Overall, we find both child support and vital records agencies are making positive
changes in the implementation of hospital-based paternity acknowledgment programs.
Both State agencies are supportive of the paternity acknowledgment effort, appear to
recognize its importance, and are increasingly capable of successfully administering
the acknowledgment process. Still, considerable improvement could be made in
forging interagency partnerships. Based on our findings, we recommend the Office of
Child Support Enforcement (OCSE) take the following actions to improve the State
operation of in-hospital voluntary paternity acknowledgment programs. The first and
second recommendations duplicate those found in a companion report on hospital
experiences in sample States:

AGENCY INTERACTION        AND DIVISION     OF DUTIES.        Promote interagency
collaboration, and assure child support and vital records agencies more clearly
define their respective agency roles. Although it is too early to determine which
specific mechanisms are the most conducive to effective interagency cooperation, we
find that States reporting the best relationships are those actively communicating and
using multiple methods of interaction. OCSE should provide technical assistance to
enhance agency interaction and encourage joint problem-solving among child support
and vital records agencies, especially in States not actively communicating. Also,
both agencies in a number of States appear unclear about their own and each other’s
responsibilities in administering acknowledgments. When asked which agency in their
State is primarily responsible for the voluntary acknowledgment process, agencies in
nineteen States gave different answers. This could create delays in documentation, as
well as gaps in service to hospitals and in outreach to unmarried parents. OCSE
should consider encouraging States to draft a flexible interagency agreement which
would make clear the procedures and activities specific to each agency, therefore
avoiding possible duplication of effort, developing efficient administrative mechanisms
and maximizing the use of State and Federal resources.

STATEWIDE     HOSPITAL IMPLEMENTATION           AND ASSESSMENT.       Monitor
Statewide hospital implementation by assuring all States collect acknowledgment
data for each birthing hospital and by encouraging development of hospital
assessment procedures. Although nearly all sample child support agencies have
contacted all birthing hospitals regarding the Federal mandates, only 36 report
complete Statewide hospital participation. In addition, we find that programs vary
widely among hospitals in States which have achieved Statewide compliance. Only
half of child support agencies in sample States have implemented hospital monitoring
procedures by collecting data on the number of acknowledgments received per
hospital and comparing it to the number of nonmarital births each hospital assists.
OCSE should consider developing a uniform reporting mechanism for States to record
data collected for each birthing hospital. OBRA requires States at a minimum collect
data on hospital nonmarital births and acknowledgments received, but States should be
encouraged to also assess hospital practices and procedures in obtaining these


                                          24
acknowledgments. OCSE should provide technical assistance to States in creating
hospital assessment procedures, and in doing so consider developing assessment
criteria which would evaluate the process birthing hospitals use to obtain
acknowledgments as well as the outcome of acknowledgments received. Examples of
potential assessment criteria include use of hospital staff training and outreach
materials, hospital staff contact with unmarried parents, and documentation handling.
Not only are many hospitals often not monitored in their program participation, but
few child support offices conduct follow-up efforts to determine continuing hospital
needs. A uniform State reporting mechanism would serve to determine State
compliance with the hospital data collection requirement, and would also allow OCSE
to monitor Statewide program implementation.16

USE OF FUNDS.       Clarify the appropriate use by child support agencies of
Federal Financial Participation (FFP) monies in compensating vital records
agencies. Of vital records agencies who were paid, a large majority report the
additional funds are beneficial, helping their offices to administer the voluntary
acknowledgment process. Additionally, most child support agencies who pay report
better service and/or an improvement in their interagency relationship with vital
records. But regardless of the merit of payments to vital records, it is clear that some
child support agencies are confused about the validity of paying as it concerns the use
of FFP funds.

AGENCY COMMENTS

We have worked in close partnership with OCSE throughout the conduct of this
inspection. Although we did not receive formal comments from ACF on our draft
reports, they demonstrated through their collaboration a general agreement with this
report and the companion reports. We worked with OCSE in developing a research
methodology, provided extensive briefings on study findings and created additional
documents to meet agency needs. We appreciate their cooperation and guidance, and
will continue to work with them on the issues raised in these reports. The Office of
the Assistant Secretary for Planning and Evaluation provided its general concurrence
with both this report and the hospital experiences report.




                                           25 

                               ENDNOTES 


1.    A ‘Birthing hospital’ is a hospital which has an obstetric care unit or provides
      obstetric services, or a birthing center associated with a hospital. (Federal
      Register, Vol. 59, No. 246).

2.    Payments may be made up to $20 to birthing hospitals and other entities that
      provide prenatal or birthing services for each voluntary acknowledgment obtained
      pursuant to an agreement with the child support agency (Federal Register, Vol. 59,
      No. 246).

3.    Regulations written to interpret OBRA ‘93 require States to “assess” each birthing
      hospital’s program on at least an annual basis (Federal Register, Vol. 59, No.
      246). This “assessment” requirement specifies only the collection of data on
      nonmarital births assisted and acknowledgments received per hospital. Following
      consultation with OCSE, we use in this report the phrase “monitor hospital
      participation” to refer to this type of data collection. The term “hospital
      assessment” refers to a broader effort which would include the evaluation of
      hospital procedures as well as outcomes.

4.    Surveys were not sent to IV-D offices in the United States territories.

5.    Child support and vital records agency surveys were received between April and
      August of 1996.

6.    Child support respondents in about half of these States (22) report their pre-OBRA
      acknowledgment services were offered Statewide. See Hospital Participation
      section for further discussion.

7.    In four States, the fee is only applicable after one year, in one State after 90 days,
      and in one State the fee is waived if the birth is part of the child support agency
      caseload.

8.    Sending the copy designated for the child support may be at the parents’ option.

9.    In most States (85 percent), the vital records agency permanently houses all
      original birth registration documents, serving as the legal repository for voluntary
      acknowledgments.

10.   Some State child support and vital records agencies use multiple methods for
      transmitting documentation information, so percentages equal greater than 100.

11.   Even when vital records agencies have operational Electronic Birth Certificate
      systems, their paternity data may be stored completely separately of birth
      certificate data and therefore not be automated.



                                       26 

12. 	   The two agencies which responded that they didn’t know whether or not timeliness
        was a problem may not know because they were answering at the State child
        support level, and the problem of late information (if it exists) could be felt more
        by the local or regional child support offices.

13. 	   The discrepancies between child support and vital records agency responses in the
        same categories are due in part to a few agencies which responded to the survey
        but did not answer this particular question, and to different interpretations among
        survey respondents as to what is meant by scaled responses such as “informal
        communication. ”

14. 	   The regulation which interprets OBRA ‘93 indicates the State child support
        agencies may enter into agreements with the agency responsible for maintaining the
        Statewide database in order to obtain identifying information about
        acknowledgments recorded in the database and the entity that maintains the
        acknowledgments in order to obtain authenticated copies. It appears that Federal
        Financial Participation funds may be used for such documentation costs (Federal
        Register, Vol. 59, No. 246). Because PRWORA requires the involvement of vital
        records agencies in paternity acknowledgment programs, regulations interpreting
        the Act may redefine the criteria used for payment of FFP to vital records
        agencies.

15. 	   Although only four percent of respondents reported using outreach materials
        created by OCSE, a number of State-generated materials appeared to have been
        developed using OCSE materials for guidance.

16. 	   States already have incentives for improving their paternity establishment rates, as
        PRWORA requires State child support agencies to increase their rates by a specific
        amount over the previous year or be subject to penalties. Additionally, PRWORA
        requires that the Secretary of Health and Human Services recommend to Congress
        a new incentive funding system for State child support agencies which is to be
        based on program performance. In preliminary documents, a joint Workgroup of
        representatives from OCSE and State IV-D programs recommended that the
        Secretary include a paternity establishment measure as one of five State
        performance requirements for receiving incentive funds. The penalty and incentive
        structures, while encouraging overall paternity rates to increase, do not directly
        address the issue of Statewide birthing hospital participation in voluntary
        acknowledgment programs.




                                         27 

                    APPENDIX                   A




     SAMPLE PATERNITY ACKNOWLEDGMENT FORMS


INDEX:


Paternity Acknowledgment Affidavit                  A-2 


Three-way Paternity Acknowledgment Affidavit        A-3 


Mother’s Rejection of Paternity Affidavit           A-4 





                                 A-l
                                                                                                                                                     :             Complete in I& ana da not alter
     State      of Arkansas
-’       Name of Chrld - First. Middle.   La51                                                                                                            Date 01 Bmh . (Month. Day. Year,
                                                                                                                                                                                                             I


      Place of Bmh      Gty. Srate                                                                                       Hosptral




                                                                          MOTHER’S INFORMATION
      Name of Mother - Ftrst. Middle. Last                                                                              (Matden)                                Date of Btrth - (Month. Day Year1



      Mo~her’s Address tdrreet. Cty. State 8 2’       Coder                                                                                                 I Mother’s Telephone Number

                                                                                                                                                            I
      Mother’s Place of Btrth (City State)                                                                                                          Mother’s Soctal Secunty Number



      Mother’s Employer                                                                              r Occuoat80n llm~re .~OSI,~enr em010~menr
                                                                                                                                            s0ew         1 Type of Business or Industry    eela. s..d:
                                                                                                       casnw ‘egc3ea nil% iJo*,                            -0lwal. Icea*eNcel Swol”


      Htspantc ongm Yes         NO    cme ow /I yes Loeat”DeOI,MB‘lca”c,c.w Dd”O Rca- DC       Race - wer~dn (.~4dnsiac* ww   s:c swc8rr B~Io.~, Educatton - rrn~awsignet!GraaeCornowed


     Mother’s Medrcal Insurance - Company Name                                                                                      Poltcy Number




                                                                          FATHER’S INFORMATION
     Name of Father - First. Middle. Last                                                                                                                       Date of Btrth - (Month. Day Year!

     I
     Father’s Address (Street. Gty        State & Zip Code)
                                                                                                                                                           1
                                                                                                                                                           ’ Father’s Telephone Number
                                                                                                                                                                                                         I




                                                                                                                                             I
     Father’s Medlcal insurance - Company Name                                                                                      Policy Number




     I have read the back of thrs form and I understand It. I certify that I am tne natural mother     I have read the back of this form and I understand It. I certffy that I am the bIologica:
     and the man named above is the blological (natural1 father of this chtld I consent to thts        (natural) father of the chtld named above I accept the obltgation to provtde chtld supper: as
     Af!:davlt Acknowledging Patermty. I request that this chrld’s last name be changed lf a           de!ermmed by state law I request that this chrla’s last name be changed If a new name 6
     new name IS g!ven on the back.                                                                    given on the back.




I    Mother’s Signature (Current Last Name)


     Date Signed
                                                                                                       Father’s Stgnature (Current Last Name)


                                                                                                       Date Sgned


     Print Name                                                                                       Pnnt Name




     State of                                          county   of                                    State of                                        Courty of

     Signed and affrrmed before me on the                                                             Signed and ahlrmed before me on the

                       Day of                                        19                                              Day of                                        19




I    Slgnaiure of Notary Publrc

     My Commrsslon expires on
                                                                                                      Signature of Notary Public

                                                                                                      My Ccmms5m       expires cn ____-~-                 __.       -_   ---.-




                        Name City Stare 8 Zip Code        Where Atldawt   Sgned                                        Name City State d 2’~; Code        Wnere Affrdaw Sgned




                                                                                            A-2
                   MOTHER’S       REJECTION       OF PATER”i1T-S      ,kl3?DAVIT




 I af3k-n that I have been given the option to complete a paw-nip affidavit within the first 72
 hours after the birth of my child, that the paternity &idavit has bezn fkily expkned to me, and I
 do not choose to compIete this form.




 I understand that by ,oivin,o up this option the ody procedure available to me for paternity
 establishment for the chiId(ren) listed beIow will be a paternity action in a court of law with
jurisdiction over paternity.
        _                 .




Printed Name of Mother



Signature of Mother                                                              Date




Printed Name(s) of Child(ren):




                                               A-4 

                                                                     LAaiohct      rUtI riUMAN       HthdUhtCtb
                                                                  STATE        REGISTRAR   OF VITAL STATISTICS

                                                            THREE-WAY                PATERNE’Y               AFFIDAVIT


                                                                         NON-FATHER’S            AFFIDAVIT

Pursuant     to KRS 213.046,                    I,                                                             9 having duly sworn do hereby                             state    and

affirm     that I AM NOT the natural                              father        and ail information           relating          to me shall be removed                        from the
birth certificate          of a                                                child, named
                                                         (sex)                                                             (full name of child at birth)

born on                                                   , 19-           at                                                              ,                                                    f
                                                                                                 (hOS@td/)                                                 (city)


Kentucky.
                                      (social        security     number)                                                 (signature of non-father)

Subscribed     and sworn to before                          me on this the                     day of                                                                   ,19        .


              My commission                expires                                                                          Notary

                                                                            FATHER’S          AFFIDAVIT
                                                                                                               /
Pursuant     to KRS 213.046,                    I,                                                                   avin            duly sworn do hereby                state,
                                                                                                               A            P
affirm,    and acknowledge               that I am the natural                        fathe                                                    child, named

                                                                                                                                                               , 19­
                                (fuu// name of child at birth)

at                                                                                                                                                       , Kentucky.
                              (hospital)
My date of birth is                                                 and

My race is                                                and I was                                                                                                                    .
                                                                                                                             (city andstate)



               (father’s   social   security number)                                                           (father’ssignature)


Subscribed    and sworn to before                          me on this the                      day of                                                                   ,19        .


             My commission                 expires                                                                         Notary

                                                                            MOTHER’S AFFIDAVIT
I,                                                                 7 having been duly sworn, do hereby                               state,    affirm,     and acknowledge
that 1 am the natural               mother            of the above said child and that                                                                                                 ,
the above affiant,          is the natural                      father    of said child.       My maiden              name is                                                              .

Child’s name should read                                                                                                                                            .


              (mother’ssociaisecuritynumber)                                                                  (mother’ssignature)

Subscribed    and sworn to before                          me on this the                      day of                                                                   ,19        -


             My corn mission expires                                                                                       Notary

                                                                                     A-3 

